Office of
INSPECTOR GENERAL

 Audit Report




 Review of Procurement Hefated Issues



 Report No. IG-0"1-94
      INSPECTOR GENERAL




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                              WASHINGTON, D.C. 20435




February 7, 1994


                      UVIIW   or   PltOCURDCItn' nu.rlD ISSUES



Federal law requires annual reporting on two aspects of procurement: lobbying
activities and advisory and assistance services.     In addition to these legal
requirements, we identified two areas, contract close-out and audit follow-up,
as the focus of the triennial review of procurement. This review was scheduled
for fiscal year 1994 in accordance with the requirements of Office of Management
and Budget (OMB) Circular A-128 that requires a detailed evaluation of agency
financial systems, or subsystems, on a cyclical basis not to exceed three years.

The objectives of this review were to determine whether the Commission is
complying with the requirements of Public Law 101-121 on lobbying activities,
evaluate the progress of the Commission in establishing effective management
controls over advisory and assistance services, determine whether contracts are
closed in a timely manner, and ascertain whether the actions agreed upon by
management in response to prior recommendations and suggestions have been
implemented and effectively address the findings.

This review was conducted by Urbach      Kahn & Werlin PC in accordance with the
Government Auditing Standards issued     by the Comptroller General of the United
States. The results of their review      are presented in four issue area reports
that are summarized below and included   in entirety as parts of this audit report.

      Review of USITC's Compliance with Public Law 101-121 on Lobbying Activities
      All required disclosures on lobbying acti vi ties from contractors were
      obtained timely and semiannual and annual reports were properly filed as
      required.

      Follow-up Review of USITC's Procurement Related Audits and Reviews
      The review did not disclose any instances which indicated that the
      Commission did not take the appropriate action relative to the
      recommendations and suggestions in prior audit and inspection reports, or
      that these actions did not resolve the respective issues.
      Review of USITC's Procurement of Advisory and Assistance Services

      The Commission spent $69,959 on advisory and assistance services in fiscal
      year 1993. The review did not disclose any significant instances of non-
      compliance with Federal laws and regulations or Commission policies and
      procedures. The auditors did find that the procurement and accounting
      system records were not reconciled in a timely manner at year end, and some
      advisory and assistance checklists were not properly completed.

      Review of USITC's Contract Close-out Procedures
      Only two contracts were physically completed in fiscal years 1992 and
      1993; neither were closed-out in accordance with Federal guidelines. A
      result of not promptly initiating close-out procedures was that funds were
      not properly deobligated on two contracts. Other matters identified were
      the need to improve policy and procedures for retention of documents and
      to eliminate duplication in procurement guidelines.

The primary recommendation from the above findings was that the Procurement
Division establish a tracking system to monitor expired contracts.
Recommendations concerning advisory and assistance services were to make timely
reconciliations and review checklists.

A major emphasis of the National Performance Review (NPR) is to streamline
procurement and a specific action recommended in the report is to bring federal
procurement laws up to date. The NPR Report identified four federal labor laws
for consideration as to whether the laws are still necessary and the burdens they
impose on the procurement system are reasonable ones. I believe that the laws
for lobbying activities and advisory and assistance services need to be reviewed
for these considerations also. In my opinion, the level of procurement activity
at the Commission does not justify the effort required to ensure compliance and
submit reports for lobbying activities or advisory and assistance services.

The audit report does not have recommendations concerning this issue because
the Commission cannot remedy the situation. However, I believe there are several
steps that the Commission might consider taking. The Commission could support
any efforts to amend these laws and/or exempt small agencies from the
requirements. In addition, the Commission could request a waiver based on past
activity levels and audit findings or ask that guidance be issued reducing the
requirements for small agencies.

The Director of Administration concurred with the recommendations and
suggestions.   A summary of the Director's comments is presented after each
finding and other matter on pages B-4, C-7, C-9, D-6, and D-7 of the report.
The Director's comments are presented in their entirety as an appendix to the
report.




                                   /~~t~~
                                     Inspector General
        UNITED STATES INTERNATIONAL
             TRADE COMMISSION

REVIEW OF USITC'S COMPLIANCE WITH PUBLIC LAW
        101-121 ON LOBBYING ACTIVITIES

               NOVEMBER 1993




 1lliUrbach Kahn & Wedin
 ~vv
                                  PC
        CERTIFIED PUBLIC ACCOUNTANTS
              UNITED STATES INTERNATIONAL TRADE COMMISSION
               REVIEW OF USITC'S COMPLIANCE WITH PUBLIC LAW
                      101-121 ON LOBBYING ACTIVITIES

                                  CONTENTS




INDEPENDENT ACCOUNTANT'S AGREED-UPON PROCEDURES REPORT           A-1


SECTION I:      BACKGROUND                                       A-2


SECTION II:     OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS   A-3
  INDEPENDENT ACCOUNTANT'S
AGREED-UPON PROCEDURES REPORT
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS
                                    INDEPENDENT ACCOUNTANT'S
                                  AGREED-UPON PROCEDURES REPORT




      UNITED STATES INTERNATIONAL TRADE COMMISSION
      Office of Inspector General




      We have performed certain agreed-upon procedures related to the compliance with Public Law
       101-121 on lobbying activities within the United States International Trade Commission (USITC).
      The procedures, identified in Section II of this report, were agreed to by USITC's Office of
      Inspector General and were performed solely to assist USITC in evaluating its compliance with
      Public Law 101-121. This report is intended solely for the information of USITC. This restriction
      is not intended to limit the distribution of this report, which is a matter of public record.

      The objectives of this engagement included the performance of agreed-upon procedures by Urbach
      Kahn & Werlin PC (UKW) to determine findings with respect to the following:

      •     the adequacy of all semi-annual reports submitted to Congress,

      •    whether the prior year evaluation was submitted to Congress with the annual budget
           justification,

      •     whether USITC complied with provisions of Public Law 101-121 and Federal Acquisition
            Regulation subparts 3.8, 52.203-11, and 52.203-12,

      •     the adequacy of actions implemented relative to prior year suggestions, and

      •    whether USITC's policies and procedures are in compliance with Federal laws and
           regulations.

      The results of our procedures did not disclose any instances of non-compliance with Federal laws
      and regulations or USITC policies and procedures. Additionally, USITC properly addressed and
      resolved suggestions which resulted from the prior year review.




      Washington, DC
      November 15, 1993


                                                                             A-1
                                       GOVERNMENT ALJDIT AND CO\,SULTING GROUP
                       1200 Seventeenth Street NW. Washington, DC ~OO~b i 2(2) 296-~020 FAX 12()2) 223-~488
                                      \\'''rld" irk Covcracc   liJr"lI~11   [rhach   H;Il~..:r   Ypung Inlnn,Jlll'n;J!
             II   SECTION I   I




BACKGROUND
              UNITED STATES INTERNATIONAL TRADE COMMISSION
               REVIEW OF USITC'S COMPLIANCE WITH PUBLIC LAW
                       101-121 ON LOBBYING ACTIVITIES

                                         BACKGROUND


USITC is an independent agency of the United States Government created by an act of Congress.
USITC conducts investigations and reports findings relating to international trade and economic
policy matters on behalf of both the Congress and President. USITC has budget appropriations
for fiscal years 1993 and 1994 of $44,852,000 and $43,500,000, respectively.

The Procurement Division in the Office of Management Services (OMS) processes all procurement
actions, except for General Services Administration work orders, which are the responsibility of
OMS' Facilities Management Division. For fiscal year 1993, USITC procured approximately $2.4
million worth of goods and services. USITC follows the Federal Acquisition Regulation (FAR) and
applicable laws for awarding, administering and reporting on contract procurements.

Public Law 101-·121 requires that none of the funds appropriated by any Act may be expended
by the recipient of a Federal contract, grant, loan, or cooperative agreement to pay any person for
influencing or attempting to influence an officer or employee of any agency, a member of
Congress, an officer or employee of Conqress, or an employee of a member of Congress in
connection with any Federal action. The law also requires that the Inspector General conduct an
evaluation each year of LJSITC's compliance with these requirements.

The FAR in subpart 3.803 requires any contractor proposing on or awarded a Federal contract in
excess of $100,000 to submit a certification (and in certain circumstances a disclosure) of
lobbying activities to the contracting officer. In addition, the contracting officer is required to
forward a copy of all lobbying activity disclosures to a designated official for subsequent
submission to Congress. In the event that no disclosure forms are required, USITC is required to
submit a report to Congress indicating that there were no disclosures required to be submitted.




                                               A-2
                       II   SECTION II   II




OBJECTIVES, SCOPE, METHODOLOGY
       AND CONCLUSIONS
                UNITED STATES INTERNATIONAL TRADE COMMISSION
                 REVIEW OF USITC'S COMPLIANCE WITH PUBLIC LAW
                         101-121 ON LOBBYING ACTIVITIES

                    OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


Objectives

UKW was engaged to perform agreed-upon procedures related to compliance with Public Law 101
-121 on Lobbying Activities within USITC. The objectives of this engagement included the
performance of aqreed-upon procedures by UKW to determine findings with respect to the
following:

•     the adequacy of all semi-annual reports submitted to Congress,

•     whether the prior year evaluation was submitted to Congress with the annual budget
      j ustification,

•     whether USITC complied with provisions of Public Law 101-121 and Federal Acquisition
      Regulation subparts 3.8, 52.203-11, and 52.203-12,

•     the adequacy of actions implemented relative to prior year suggestions, and

•     whether USITC's policies and procedures are in compliance with Federal laws and
      regulations.

Scope

UKW conducted its review from October 18 through November 15, 1993 at the offices of USITC
in Washington, DC. UKW's engagement staff met with USITC personnel with responsibilities over
lobbying activity requirements, reviewed USITC policies and directives, and tested all fiscal year
1993 contract files for which lobbying activity regulations would apply. Our review only identified
one contract subject to these provisions.

Methodology

The general procedures performed by UKW were as follows:

•     reviewed prior audit and inspection reports issued by the Office of Inspector General and
      related workpapers.

•     documented whether recommendations from prior audits and inspections have been
      effectively implemented.

•     reviewed USITC policies and directives relative to lobbying activities reporting requirements.

•     reviewed USITC's compliance with applicable provisions of Public Law 101-121 and FAR
      subparts 3.8, 52.203-11, and 52.203-12.

•     interviewed individuals in the Procurement Division and Office of Finance and Budget who
      are assigned responsibilities relative to compliance with regulations on lobbying activities and
      the submission of reports to Congress.



                                                 A·3
               UNITED STATES INTERNATIONAL TRADE COMMISSION
                REVIEW OF USITC'S COMPLIANCE WITH PUBLIC LAW
                        101-121 ON LOBBYING ACTIVITIES

                   OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


•    identified any changes in USITC policies and procedures implemented during fiscal year
     1993.

•    determined all contracts and modifications for fiscal year 1993 subject to the regulatory
     provisions on lobbying activities.

•    reviewed required certifications in contract files to ascertain existence and completeness.

•    reviewed reports submitted to Congress to determine the following:

     ./       whether negative as well as positive reports were submitted, and

     ./       whether reports were complete, accurate and filed timely.

Conclusions

The results of our procedures did not disclose any instances of non-compliance with Federal laws
and regulations or USITC policies and procedures. We noted that all required disclosures from
contractors were obtained timely and that semi-annual and annual reports were properly filed as
required. We also found that usn C properly addressed and resolved suggestions disclosed in the
prior year review.




                                               A·4
      UNITED STATES INTERNATIONAL
           TRADE COMMISSION

FOLLOW-UP REVIEW OF USITC'S PROCUREMENT
      RELATED AUDITS AND REVIEWS

            NOVEMBER 1993




UK Urbach Kahn & Wedin PC
&W CERTIFIED PUBLIC ACCOUNTANTS
               UNITED STATES INTERNATIONAL TRADE COMMISSION
                  FOLLOW-UP REVIEW OF USITC'S PROCUREMENT
                        RELATED AUDITS AND REVIEWS

                                   CONTENTS




iNDEPENDENT ACCOUNTANT'S AGREED-UPON PROCEDURES REPORT            B-1


SECTION I:       BACKGROUND                                       B-2


SECTION II:      OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS   B-3


SECTION Ill:     OTHER MATTERS AND SUGGESTIONS                    8-4
  INDEPENDENT ACCOUNTANT'S
AGREED-UPON PROCEDURES REPORT
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS

                                   INDEPENDENT ACCOUNTANT'S
                                 AGREED-UPON PROCEDURES REPORT




     UNITED STATES INTERNATIONAL TRADE COMMISSION
     Office of Inspector General




     We have performed certain agreed-upon procedures related to a follow-up review of procurement
     related audits and reviews within the United States International Trade Commission (USI TC). The
     procedures, identified in Section II of this report, were agreed to by USITC's Office of Inspector
     General and were performed to assist USITC in evaluating and improving its procurement system.
     This report is intended solely for the information of USITC. This restriction is not intended to limit
     the distribution of this report, which is a matter of public record.

     The objectives of this engagement included the performance of agreed-upon procedures by Urbach
     Kahn & Werlin PC (UKW) to determine findings with respect to the following:

     •     the adequacy and effectiveness of prior procurement audit                                   recommendations   and
           suggestions, and subsequent USITC action, and

     •     whether the prior procurement audit recommendations and suggestions, and subsequent
           USITC action resolved the issue.

     The results of our procedures did not disclose any significant instances which indicated that USITC
     did not take the appropriate action relative to the recommendations and suggestions, or that these
     actions did not resolve the respective issue. We did note one additional matter included in Section
     III of this report.



                                                                             PC
     Washington, DC
     November 15, 1993




                                                                  B-1
                                         GOVERNMENT AUDIT AND CONSULTING GROUP
                        ] 200 Seventeenth Street NW. Washington. DC 20036 (202) 296-:'W20 FAX (2021 22.n~-fXR
                                       Worldwide Coverage through Lrhadl Hucker Young Intcrn.uion.rl
             II   SECTION I   II




BACKGROUND
             UNITED STATES INTERNATIONAL TRADE COMMISSION
                FOLLOW-UP REVIEW OF USITC'S PROCUREMENT
                      RELATED AUDITS AND REVIEWS

                                        BACKGROUND



USITe is an independent agency of the United States Government created by an act of Congress.
USITC conducts investigations and reports findings relating to international trade and economic
policy matters on behalf of both the Congress and President. USITC has budget appropriations
for fiscal years 1993 and 1994 of $44,852,000 and $43,500,000, respectively

The Procurement Division in the Office of Management Services (OMS) processes all procurement
actions, except for General Services Administration work orders, which are the responsibility of
OMS' Facilities Management Division. For fiscal year 1993, USITC procured approximately $2.4
million worth of goods and services. USITC follows the Federal Acquisition Regulation (FAR) and
apphcable laws for awarding, administering and reporting on contract procurements.

Previous procurement related audit and inspection reports are as follows:

•    Audit of Procurement Policies and Procedures Within USITe, issued September 13, 1991.
     This audit included eleven recommendations and the completed action was approved by the
     Chairman on September 28, 1992.

•    Review of USITC's Space Utilization Charges, issued August 24, 1992.          This review
     included five recommendations and suggestions.

•    Leqet Review as Internal Control in Procurement Process, issued March 31, 1993.        This
     inspection report included two suggestions.




                                              B-2
                       II   SECTION II   ]1




OBJECTIVES, SCOPE, METHODOLOGY
       AND CONCLUSIONS
              UNITED STATES INTERNATIONAL TRADE COMMISSION
                FOLLOW-UP REVIEW OF USITC'S PROCUREMENT
                        RELATED AUDITS AND REVIEWS

                 OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


Objectives

UKW was engaged to perform agreed-upon procedures related to a follow-up review of
procurement related audits and reviews within USITC. The objectives of this engagement included
the performance of agreed-upon procedures by UKW to determine findings with respect to the
following;

•     the adequacy and effectiveness of prior procurement audit recommendations               and
      suggestions, and subsequent USITC action, and

•     whether the prior procurement audit recommendations and suggestions, and subsequent
      USITC action resolved the issue.

Scope

UKVv conducted its review from October 18 through November 15, 1993 at the off.ces of USITC
in Washington, DC. UKW's engagement staff met with USITC personnel with responsibilities over
procurement related issues, reviewed USITC policies and directives, and examined prior
procurement related audit, review and inspection reports.

Methodology

The general procedures performed by UKW were as follows;

•     reviewed prior procurement related audit, review and inspection reports issued by the Office
      of Inspector General, and related workpapers.

•     documented whether recommendations and suggestions from prior audits, reviews and
      inspections have been effectively implemented.

•     reviewed the appropriateness of prior recommendations and suggestions, and whether the
      subsequent USITC action was effective in resolving the issue.

Conclusions

The results of our procedures did not disclose any instances which indicated that USITC did not
take the appropriate action relative to the recommendations and suggestions, or that these actions
did not resolve the respective issues.




                                               B-3
                       II   SECTION III   II




OTHER MATTERS AND SUGGESTIONS
              UNITED STATES INTERNATIONAL TRADE COMMISSION
                 FOLLOW-UP REVIEW OF USITC'S PROCUREMENT
                        RELATED AUDITS AND REVIEWS

                            OTHER MATTERS AND SUGGESTIONS


The USITC Inspector General's Inspection Report 8-93, Legal Review as Internal Control in
Procurement Process recommended several improvements to the Office of General Counsel's
(aGe) involvement in the procurement and contracting process including reducing OGC's time to
perform follow-up legal reviews. To date, the Director of the Office of Administration and the
General Counsel are in discussions to address this issue and have not yet reached consensus. This
issue should be monitored in the coming year to ensure a timely resolution.

Management's response

"Several discussions have been held to discuss the matter of the timing and extent of legal
reviews by the Office of General Counsel. In addition to the General Counsel and the Director,
Office of Administration the Chief, Procurement Division and the Director, Office of Management
Services have also been involved in the discussions.

Considerable progress has been made including the Procurement Division providing the General
Counsel with a monthly report on the procurement actions requiring legal review and frequent
discussions with the attorneys assigned to particular contracts. The matter of extent of legal
review should depend on the nature of the contractual action. More discussions are planned after
the return of the Procurement Division Chief who has been on extended sick leave. Additionally,
we look forward to the appointment of an Assistant General Counsel for Administration, a position
which the General Counsel announced on January 7, 1994. n Target completion date: June 1,
1994.




                                              84
       UNITED STATES INTERNATIONAL
            TRADE COMMISSION

REVIEW OF USITC'S PROCUREMENT OF ADVISORY
         AND ASSISTANCE SERVICES

             NOVEMBER 1993




UK Urbach Kahn & Wedin PC
ml CERTIFIEDPUBLICACCOUNTANTS
               UNITED STATES INTERNATIONAL TRADE COMMISSION
                REVIEW OF USITC'S PROCUREMENT OF ADVISORY
                          AND ASSISTANCE SERVICES

                                   CONTENTS




INDEPENDENT ACCOUNTANT'S AGREED·UPON PROCEDURES REPORT            C-1


SECTION I:       BACKGROUND                                       C-2


SECTION II:      OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS   C-3


SECTION III:     FINDINGS AND RECOMMENDATIONS                     C-6
  INDEPENDENT ACCOUNTANT'S
AGREED-UPON PROCEDURES REPORT
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS
                                     INDEPENDENT ACCOUNTANT'S
                                   AGREED-UPON PROCEDURES REPORT




      UNITED STATES INTERNATIONAL TRADE COMMISSION
      Office of Inspector General



      We have performed certain agreed-upon procedures related to procurement of advisory and
      assistance services within the United States International Trade Commission (USITC). The
      procedures, identified in Section /I of this report, were agreed to by USITC's Office of Inspector
      General and were performed to assist USITC in evaluating and improving its procurement of
      advisory and assistance services. This report is intended solely for the information of USITe. This
      restriction is not intended to limit the distribution of this report, which is a matter of public record.

      The objectives of this engagement included the performance of agreed-upon procedures by Urbach
      Kahn & Werlin PC (UKW) to determine findings with respect to the following:

      •     the adequacy and effectiveness of internal control procedures related to preparation of the
            advisory and assistance service checklists, and advisory and assistance reporting
            requirements to the Federal Procurement Data System (FPDSj,

      •     the adequacy and effectiveness of the process and controls for experts or consultants hired
            under personnel authority, if any,

      •     the adequacy of reporting to the FPDS,

      •     whether the prior year evaluation was submitted to Congress with the annual budget
            justificatio n,

      •     whether USITC complied with provisions of Office of Management and Budget, Circular A-
            120 and other regulations,

      •     the adequacy of actions implemented relative to the prior year suggestions, and

      •     whether USITC's policies and procedures are in compliance with Federal laws and
            regulations.

      Our findings and recommendations are included in Section III of this report.




      Washington, DC
      November 15, 1993

                                                                         C-1
                                        GOVERNMENT AUDIT AND CONSULTING GROUP
                        1200 Seventeenth Street NW, Washington, DC 2J)()J6 (202) 2%-2020 FAX (202) 223-g-lH8
                                       \\',)rld,1 ide C"'cragl' through l 'rhach Hacl.;cr Young lntcrn.n ionul
             II   SECTION I   II




BACKGROUND
             UNITED STATES INTERNATIONAL TRADE COMMISSION
              REVIEW OF USITC'S PROCUREMENT OF ADVISORY
                        AND ASSISTANCE SERVICES

                                       BACKGROUND



USITC is an independent agency of the United States Government created by an act of Congress.
USITC conducts investigations and reports findings relating to international trade and economic
policy matters on behalf of both the Congress and President. USITC has budget appropriations
for fiscal years 1993 and 1994 of $44,852,000 and $43,500,000, respectively.

The Procurement Division in the Office of Management Services (OMS) processes all procurement
actions, except for General Services Administration work orders, which are the responsibility of
OMS' Facilities Management Division. For fiscal year 1993, USITC procured approximately $2.4
million worth of goods and services. USITC follows the Federal Acquisition Regulation (FAR) and
applicable laws for awarding, administering and reporting on contract procurements.

The Budget and Accounting Act of 1921, as amended, requires that the Inspector General conduct
an evaluation of the progress of the agency in establishing effective management controls over
advisory and assistance services and improving the accuracy and completeness of the information
provided to the FPDS.




                                              C-2
                       II   SECTION II   II




OBJECTIVES, SCOPE, METHODOLOGY
        AND CONCLUSIONS
              UNITED STATES INTERNATIONAL TRADE COMMISSION
               REVIEW OF USlTC'S PROCUREMENT OF ADVISORY
                         AND ASSISTANCE SERVICES

                 OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


Objectives

UKW was engaged to perform agreed-upon procedures related to the procurement of advisory and
assistance services within USITC. The objectives of this engagement included the performance
of agreed-upon procedures by UKW to determine findings with respect to the following:

•    the adequacy and effectiveness of internal control procedures related to the preparation of
     advisory and assistance service checklists, and advisory and assistance reporting
     requirements to the FPDS,

•    the adequacy and effectiveness of the process and controls for experts or consultants hired
     under personnel authority. if any,

•    the adequacy of reporting to the FPDS,

•    whether the prior year evaluation was submitted to Congress with the annual budget
     justification,

•     whether USITC complied with provisions of OMB Circular A-120 and other regulations,

•    the adequacy of actions implemented relative to the prior year suggestions, and

•    whether USITC's policies and procedures are in compliance with Federal laws and
     regulations.

Scope

UKW conducted its review from October 18 through November 15, 1993 at the offices of USITC
in Washington, DC. UKW's engagement staff met with USITC personnel with responsibilities over
the procurement of advisory and assistance services, reviewed USITC policies and directives, and
tested advisory and assistance transactions and records for fiscal year 1993.

Methodology

The general procedures performed by UKW were as follows:

•    reviewed prior audit and inspection reports issued by the Office of Inspector General, and
     related workpapers.

•    documented whether recommendations from prior audits and inspections have been
     effectively implemented.

•    reviewed USITC policies and directives relative to the procurement of advisory and
     assistance services.




                                              C-3
            UNITED STATES INTERNATIONAL TRADE COMMISSION
             REVIEW OF USITC'S PROCUREMENT OF ADVISORY
                       AND ASSISTANCE SERVICES

               OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


•   reviewed USITC's compliance with the following applicable provisions:

    ./    OMB Circular No. A-120, Guidelines for the Use of Advisory and Assistance Services,

    ./   USITC Administrative Order 92-11, Advance Notice to the Commission of Requests
         for Consultant (Advisory) Assistance,

    ./   48 CFR, subpart 9.5, Organizational and Consultant Conflicts of Interest,

    tI   OMB Circular No. A-Tl, Preparation and Submission of Budget Estimates on
         Consulting Services, and

    tI   Federal Personnel Manual, Employment of Individual Experts and Consultants, Chapter
         304.

•   interviewed individuals in the Procurement Division and Office of Finance and Budget who
    are assigned advisory and assistance responsibilities relative to the procurement, budget.
    and submission of reports.

•   identified any changes in USITC policies and procedures implemented during fiscal year
    1993. part!cularly in regards to consultant conflicts of interest.

•   evaluated the items on the advisory and assistance listing provided by the Procurement
    Division and performed the following procedures:

    .I   verified whether the services were properly classified as advisory and assistance
         services,

    ,f   examined a listing of all contract -actions for fiscal year 1993 to ascertain that no
         omissions were made to the advisory and assistance listing. and

    tI   reconciled the list to the accounting records maintained by the Office of Finance and
         Budget.

    reviewed the USITC portion of the Budget of the United States Government - Fiscal Year
    1994 to ascertain that advisory and assistance services were properly segregated, as
    required.

•   reviewed the advisory and assistance checklists in the contract files and performed the
    following procedures:

    ./   verified the existence and completeness.

    tI   verified checklists were completed when required.




                                           C-4
                UNITED STATES INTERNATIONAL TRADE COMMISSION
                 REVIEW OF USITC·S PROCUREMENT OF ADVISORY
                           AND ASSISTANCE SERVICES

                   OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


     ./       verified proper signatures were obtained, and

     ./       verified internal controls are adequate.

•     reviewed quarterly reporting to the Federal Procurement Data System and performed the
      following procedures:

     ./       verified forms were filed timely,

     ./       verified required Standard Form 279 for advisory and assistance were submitted and
              properly coded as advisory and assistance services, and

      tI      verified internal controls are adequate.

•     interviewed employees from the Office of Personnel to document whether any experts or
      consultants were hired under personnel authority in fiscal year 1993.

Due to the rescission of OMB Circular A-120, effective after the last date of our field work, the
following replacement documents as determined by OMS have been considered and their
requirements or changes incorporated into our recommendations:

•     OFPP Policy Letter 93-1, Management Oversight of Service Contracting

•     OFPP Policy Letter 92-1, Inherently Governmental Functions

•     OFPP Policy Letter 9 r·2~ Service Contracting

•     OFPP Policy Letter 89-1, Conflicts of Interest Applicable to Consultants

•     OMB Circular A -76, Performance of Commercial Activities

•     OFPP's Guidance on Contract Administration

Conclusions

The results of our procedures did not disclose any significant instances of non-compliance with
Federal laws and regulations, or USITC policies and procedures. We did, however, identify certain
findings and recommendations, which are discussed under Section III of this report.




                                                  C-5
                      II   SECTION III   II




FINDINGS AND RECOMMENDATIONS
                UNITED STATES INTERNATIONAL TRADE COMMISSION
                 REVIEW OF USITC'S PROCUREMENT OF ADVISORY
                           AND ASSISTANCE SERVICES

                                FINDINGS AND RECOMMENDATIONS




1)   PROCUREMENT'S COMPUTER SYSTEM SCHEDULE (SACONS) WAS NOT
     RECONCILED TO USITC'S ACCOUNTING SYSTEM FOR ADVISORY AND
     ASSISTANCE SERVICES PROPERL Y AS OF SEPTEMBER 30, 1993.

     Condition

     As of September 30, 1993, the schedule generated by the procurement computer system
     (SACONS) had a total of $60,740 for 1993 advisory and assistance services purchased by
     USITC. The accounting system, maintained by the Office of Finance and Budget (OFB),
     however, indicated that the amount for advisory and assistance services was $70,582. The
     differences are as follows:

     •       An advisory and assistance contract modification for $10,760 effective September
             13, 1993 was correctly reported in the accounting system, but, was excluded from
             the SACONS system listing.

     •       The remaining $918 difference was due to an invoice amount which was lower than
             the small purchase order amount, and is a normal reconciling item rather than a
             finding.

     In addition, both the SACONS system and the accounting system incorrectly reported $617
     for travel expenses of consultants. The reconciled listing and amount of advisory and
     assistance services are as follows:




     Urbach Kahn & Werlin        ITC-CN-93-0002     $67,390      Audit services

     Briere Associates, Inc.     ITC-OP-93-0409         , ,575   Edit and review of aircraft investigation

     u.s.   Recording Company    ITC-RB-93-0187           994    Technical audio visual services

             Total                                  $69,959


     Criteria

     OMB Circular A-120 states, ..... Each Agency will assure that it maintains an accounting or
     information system which effectively monitors and reports advisory and assistance service
     activities ... "

     Cause

     Fiscal year 1993 was the first year in which all contracts were incorporated into the
     SACONS system. Procurement personnel had indicated that the advisory and assistance
     listing does occasionally omit contract modifications. Although the reason was not yet

                                                  C-6
           UNITED STATES INTERNATIONAL TRADE COMMISSION
            REVIEW OF USITC'S PROCUREMENT OF ADVISORY
                      AND ASSISTANCE SERVICES

                         FINDINGS AND RECOMMENDATIONS




determined, PRD is aware of the discrepancy and will continue to improve the SACONS
system. Additionally, the timing of the preparation of the reconciliation may have resulted
in subsequent discrepancies which went unnoticed.

Effect

The advisory and assistance listing and corresponding amounts which are reponed to
Congress could be incorrectly reported.

Recommendation

1.       We recommend the Procurement Division ensure that year-end reconciliations and its
         respective reports include the proper transactions for the fiscal year to ensure an
         adequate and timely reconciliation.

Management's response

"Agree. The SACONS system Administrator will be instructed via memorandum from the
Chief Procurement Division to reconcile the advisory and assistance listing with accounting
     I


system the first week in each November for the ending fiscal year. n Target completion date:
February 15, 1994.




                                          C-7
                UNITED STATES INTERNATIONAL TRADE COMMISSION
                 REVIEW OF USITC'S PROCUREMENT OF ADVISORY
                           AND ASSISTANCE SERVICES

                             FINDINGS AND RECOMMENDATIONS




2)   ADVISORY AND ASSISTANCE SERVICES CHECKLIST TO ENSURE
     COMPLIANCE WITH THE FAR AND OMS CIRCULAR A-120 SHOULD BE
     COMPLETE.

     Condition

     Two of the five advisory and assistance services checklists examined did not have the boxes
     checked (items 7 and B) which certified that the request for the use of advisory and
     assistance services complied with the FAR and OMB Circular A-120.               The Chief,
     Procurement Division and the Director, Office of Management Services are responsible for
     completing items 7 and B.

     Criteria

     USITC Directive 3601. 1, 9.d. (3) states, " ... a requisitioner must first complete the checklist
     Advisory and Assistance Services... "

     Instructions for completion of this checklist states, n ••• The Chief, Contracting and
     Procurement Division, and the Director, Office of Management Services, complete items 7
     and B... ",

     Cause

     The Procurement Division had indicated that these items were inadvertently overlooked.
     Procurement personnel believe that since the forms were signed by the proper officials, the
     certification of compliance with regulations was valid.

     Effect

     For two of the five checklists, it was not clear whether the certifications stating compliance
     with the FAR and OM8 Circular A-120 were valid.

     Recommendation

     We recommend that the Procurement Division and Office of Management Services:

     2.    Review the checklists more closely to ensure that items 7 and 8 are properly
           completed. If USITC determines that the signatures on the checklists represent
           compliance with the FAR and OMB Circular A-120, then USITC should consider
           deleting items 7 and 8 from the checklist and including an all inclusive statement
           regarding compliance with the noted regulations.




                                                C-8
       UNITED STATES INTERNATIONAL TRADE COMMISSION
        REVIEW OF USITC'S PROCUREMENT OF ADVISORY
                  AND ASSISTANCE SERVICES

                      FINDINGS AND RECOMMENDATIONS



Management's response

n Agree. OMS Circular A-120 has been rescinded (November 19, 1993), therefore the Senior
Procurement Executive will revise the procedures to conform with the FAR and OMS Policy
Letter No. 93-1, dated November 19, 1993. At that time we will eliminate any confusion
concerning signatures of review or approval. n Target completion date: June 1, 1994.
     UNITED STATES INTERNATIONAL
          TRADE COMMISSION

     REVIEW OF USITC'S CONTRACT
       CLOSE OUT PROCEDURES

           NOVEMBER 1993




UK Urbach Kahn & Wedin PC
&W CERTIFIEDPUBLICACCOUNTANTS
              UNITED STATES INTERNATIONAL TRADE COMMISSION
             REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                                  CONTENTS




INDEPENDENT ACCOUNTANT'S AGREED-UPON PROCEDURES REPORT           D-1


SECTION i:      BACKGROUND                                       D-2


SECTION II:     OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS   D-3


SECTION III:    FINDINGS AND RECOMMENDATIONS                     D-5


SECTION iV:     OTHER MATTERS AND SUGGESTIONS                    D-8
  INDEPENDENT ACCOUNTANT'S
AGREED-UPON PROCEDURES REPORT
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS
                                   INDEPENDENT ACCOUNTANT'S
                                 AGREED-UPON PROCEDURES REPORT




      UNITED STATES INTERNATIONAL TRADE COMMISSION
      Office of Inspector General




      We have performed certain agreed-upon procedures related to the contract close out procedures
      within the United States International Trade Commission (USITC). The procedures, identified in
      Section II of this report, were agreed to by USITC's Office of Inspector General and were
      performed to assist USITC in evaluating and improving its contract close out procedures. This
      report is intended solely for the information of USITC. This restriction is not intended to limit the
      distribution of this report, which is a matter of public record.

      The objectives of this engagement included the performance of agreed-upon procedures by Urbach
      Kahn & Werlin PC (UKW) to determine findings with respect to the following:

      •     whether contracts were closed in the timeframes stipulated by Federal Acquisition
            Regulation,

      •     whether closed contract files were complete and provided support for receipt and
            acceptance of final dellverables,

      •     the timeliness and adequacy of deobligation on expired and closed contracts,

      •     whether justification exists for contracts which have expired, and have not been closed, and

      •     whether USITC's policies and procedures are in compliance with the FAR.

      The engagement findings and other matters are included in Sections III and IV of this report.




      Washington, DC
      November 15, 1993




                                                                         0-1
                                       GOVERNMENT AUDIT AND CONSULTING GROUP
                       [200 Seventeenth Street NW, Washington. DC 20036 (202) 296-2020 FAX                    1~(2) ~23-X-l::\R
                                      Worldwide   Cmcr;t~L' Il1rnll~h   Urbach Harker Ynunj; lnn-rn.u ionul
             II   SECTION I   II




BACKGROUND
            UNITED STATES INTERNATIONAL TRADE COMMISSION
           REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                                        BACKGROUND



USITC is an independent agency of the United States Government created by an act of Congress.
USITC conducts investigations and reports findings relating to international trade and economic
policy matters on behalf of both the Congress and President. USITC has budget appropriations
for fiscal years 1993 and 1994 of $44,852,000 and $43,500.000, respectively.

The Procurement Division in the Office of Management Services (OMS) processes all procurement
actions, except for General Services Administration work orders, which are the responsibility of
OMS' Facilities Management Division. For fiscal year 1993, USITC procured approximately $2.4
million worth of goods and services. USITC follows the Federal Acquisition Regulation (FAR) and
applicable laws for awarding, administering and reporting on contract procurements.

The FAR section 4.804-5, requires that the office administering the contract (Procurement
Division) to be responsible for initiating administrative close out of a contract after receiving
evidence of physical completion. This process involves an initial excess funds review to be
performed and reported to the Procurement Division and a final close out where excess funds are
deobligated. Compliance with contract close out procedures has not specifically been addressed
in prior reviews at USITC.




                                              0-2
                       II   SECTION II   I




OBJECTIVES, SCOPE, METHODOLOGY
       AND CONCLUSIONS
              UNITED STATES INTERNATIONAL TRADE COMMISSION
             REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                   OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


Objectives

UKW was engaged to perform agreed-upon procedures related to the contract close procedures
within USITC. The objectives of this engagement included the performance of agreed-upon
procedures by UKW to determine findings with respect to the following:

•       whether contracts were closed in the timeframes stipulated by the FAR,

•    whether closed contract files were complete and provided support for receipt and
     acceptance of final deliverables,

•    the timeliness and adequacy of deobligation on expired and closed contracts,

•    whether justification exists for contracts which have expired, and have not been closed, and

•     whether USITC; s policies and procedures are in compliance with the FAR.

Scope

UKW conducted its review from October 18 through November 15, 1993 at the offices of USITC
in Washington, DC. UKW"s engagement staff met with USITC personnel with responsibilities over
the contract close out procedures and the deobligation of unliquidated balances, reviewed USITC
policies and directives, and tested all closed and expired contracts from fiscal year 1992 and
1993.

Methodology

The general procedures performed by UKW were as follows:

•    reviewed the report on this subject prepared by the Department of Education, Office of
     Inspector General,

•    documented and reviewed the practices utilized by the Procurement Division (PRO) to close
     expired contracts within stipulated timeframes as set forth by the FAR.

•    documented and reviewed the practices utilized by the Office of Finance and Budget (OFB)
     to deobligate unliquidated balances on expired contracts.

•    interviewed individuals from PRD and OMS who are assigned responsibilities related to the
     close out of contracts.

•    interviewed individuals from OFB who are assigned responsibilities related to the deobligation
     of unliquidated balances.

•    reviewed USITC's compliance with USITC polices and directives.

•    reviewed USITC's compliance with the FAR subpart 4.803, 4.804, and 4.805.



                                               0-3
            UNITED STATES INTERNATIONAL TRADE COMMISSION
           REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                   OBJECTIVES, SCOPE, METHODOLOGY AND CONCLUSIONS


•    reviewed all contract files which were closed in fiscal year 1992 and 1993 and performed
     the following procedures:

     .I       verified whether the contracts were closed timely,

     .I       verified whether unliquidated balances were deobligated timely,

     .I       verified whether contract files included documentation to support receipt and
              acceptance of final deliverables, and

     ./       verified the files were complete.

•    reviewed all contract files which expired by the end of fiscal year 1993 which had not been
     closed and performed the following procedures:

     ./       verified whether there was adequate justification supporting open contracts,

     .I       verified whether unliquidated balances were deobligated, and

     .I    verified that documentation was included in the files supporting the initiation of close
           out procedures.

Conclusions

The results of our procedures did not disclose any significant instances of non-compliance with
the FAR, or USITC policies and procedures. We did, however, identify certain findings and
recommendations, which are discussed under Sections III and IV of this report.




                                                  0-4
                      II   SECTION III   II




FINDINGS AND RECOMMENDATIONS
           UNITED STATES INTERNATIONAL TRADE COMMISSION
          REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                            FINDINGS AND RECOMMENDATIONS




1)   TIMEFRAME FOR CONTRACT CLOSE OUT IS NOT CONSISTENT WITH THE
     FAR.

     Condition

     Two contracts were closed out during fiscal years 1992 and 1993 at USITC. Neither
     contract was closed within the six month FAR guideline for firm fixed-priced contracts. A
     summary of the delays is as follows:

     •    The Free State Reporting, Inc. contract remained open for over 14 months. The final
          invoice was paid by USITC on August 8, 1992 (physical completion), however, final
          close out did not occur until October 22, 1993 (the date the Contract Completion
          Statement was signed by the Director, Office of Administration, contracting officer).
          The reasons for the 14 month delay were as follows:

          ./     The delay of over 9 months occurred due to the Procurement Division (PRO) not
                 submitting the contract file to the contracting officer for final signature on the
                 Contract Completion Statement. The last date of any close out completed
                 action was January 12, 1993, however, the Contract Completion Statement
                 was not signed by the contracting officer, until October 22, 1993.

          .I     The delay of over 4 months occurred due to PRD not sending a memorandum
                 timely to the Contracting Officer Technical Representative (COTR) which
                 certified that all goods and services under the contract had been received. The
                 final invoice paid by OFB was August 8, 1992, however, the memorandum to
                 the COTR was not sent by PRD until December 14, 1992. Since OFB does not
                 pay invoices without proof of receipt, physical completion is deemed to occur
                 no later than the date the final invoice was paid.

     •    The Cotton & Company contract remained open for 12 months. The final invoice was
          paid by USITC on October 14, 1992 (physical completion), however, final close out
          did not occur until October 22, 1993 (the date the Contract Completion Statement
          was signed by the Director, Office of Administration, contracting officer). The reasons
          for the one year delay were as follows:

          .I     PRO deferred the initiation of close out procedures for 6 months. The final
                 payment under the contract was made October 14, 1992, however. PRD did not
                 generate any close out memorandums until April 1993.

          ./     A delay of almost 6 months occurred due to PRD not submitting the contract file
                 to the contracting officer for final signature on the Contract Completion
                 Statement. The last date of any close out completed action was April 28, 1993
                 but the Contract Completion Statement was not signed by the contracting
                 officer, until October 22, 1993.
       UNITED STATES INTERNATIONAL TRADE COMMISSION
      REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                         FINDINGS AND RECOMMENDATIONS




Criteria

The FAR, subpart 4.804-1 (a)(2), states, ..... Files for all firm fixed-price contracts other than
small purchases should be closed within 6 months of the month in which the contracting
officer receives evidence of physical completion ..... For the purposes of our review, we have
considered the payment of the final invoice as evidence of physical completion.

Cause

PRD indicated that its first priority is to satisfy work efforts with pending and potential
contracts. Therefore, administrative close out of contracts often does not receive immediate
attention. In addition, PRD indicated that there is a shortage of administrative personnel to
perform such functions necessary to document contract close out.

Effect

The FAR is not being strictly adhered to. However, since the close out process did not
affect the timely deobligation of unliquidated balances, the late administrative close out of
contracts did not appear to cause a significant problem. However, minor corrections were
made by OFB which were detected as a result of the close out process. Had the close out
procedures been implemented timely, these discrepancies may have been detected earlier.

Recommendation

1.       We recommend that PRD develop a tickler file or other system for tracking expiring
         contracts within USITC. This system will ensure that close out procedures are
         monitored and completed timely and improve USITC's compliance with the FAR.

Management's response

..Agree. The PRD has developed a listing of active contracts (tickler file) to provide
information concerning expired contracts and contracts which are in the close out process."
Target completion date: Complete.




                                            0-6
            UNITED STATES INTERNATIONAL TRADE COMMISSION
           REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                            FINDINGS AND RECOMMENDATIONS




2)   TWO INSTANCES OF FUNDS NOT PROPERL Y DEOBLIGA TED WEREFOUND.

     Condition

     We noted one instance where a $3,908 unliquidated balance had not been deobligated one
     year after the expiration date of the contract (Evernet). We also noted one instance where
     a final invoice paid in October 1993 was made one month after OFB had deobligated the
     unliquidated balance under the contract (Advanced Information Network).

     Criteria

     The FAR, subpart 4.804-3, states, " ... The paying office (OFB) shall close the contract file
     (deobligate unliquidated balances) upon issuance of the final payment voucher... "

     Cause

     It appears that administrative close out of contracts are not always being performed in a
     timely or effective manner. Outstanding issues affecting the close out of a contract may not
     be adequately communicated to OFB, resulting in problems with funds being properly
     deobligated.

     Effect

     Besides not being in compliance with the FAR, USITC may not be able to put these funds
     to use in other areas on a timely basis.

     Recommendation

     As discussed previously, a tracking system for monitoring expired contracts and its
     subsequent close out procedures should include steps to monitor OFB's process for
     deobligating funds to ensure it is complete and timely. (See recommendation 1.)

     Management's response

     "Agree. Since procedures are already in place under the Desk top Procedures for Contract
     Close Out, the Chief, Procurement Division will remind each Contract Specialist to review
     the procedures paying particular attention to the deobligation of funds." Target completion
     date: February 15, 1994.




                                              0-7
                       II   SECTION IV   II




OTHER MATTERS AND SUGGESTIONS
            UNITED STATES INTERNATIONAL TRADE COMMISSION
           REVIEW OF USITC'S CONTRACT CLOSE OUT PROCEDURES

                             OTHER MATTERS AND SUGGESTIONS




UKW's review also identified the following suggestions which UKW did not consider compliance
issues, however would enhance the procurement system of USITC:

1)    Since contract files are sent out to an off-site USITC storage facility when the contract is
      closed, our suggestion is for PRD or OMS to maintain records which identify which files had
      been sent out. In addition, a reference to the location within the storage facility and the
      date the contract file was sent out should be maintained. Lastly, we suggest that a policy
      be developed which addresses the FAR retention periods. OMS indicated that they believe
      contract files are currently held in the storage facility indefinitely. The FAR specifies that
      signed originals of contracts and modifications should be retained for a minimum of 6 years
      and 3 months after final payment under the contract is made.

      The following are our specific suggestions:

      a}    USITC should establish a system to track which files are maintained in the storage
            facility, and where they can be found.

      b)    Although an indefinite retention policy for some files seems prudent, USITC should
            establish a policy for exceptions to the FAR record retention policies.

Management's response

n A Dbase system for tracking files    in the storage facility has been in place for some time.
Additionally, desk procedures are in place for the person coordinating this function. Apparently
the auditors did not have a clear understanding of this system at the time of their review and the
presence of certain procurement files which have been placed in the storage facility. These files
can be readily retrieved. We will revise USITC Directive 3601. 1 to include a retention schedule
for the closed out contract files. n Target completion date: June 1, 1994.

2)    PRD maintains a Procurement Policy and Procedures Guide which substantially mirrors
      USITC Directive 3601. 1. In addition, the Procurement Policy and Procedures Guide was last
      updated September 1990, whereas the USITC Directive 3601.1 was revised September
      1992.

      c)    We suggest that either the Procurement Policy and Procedures Guide be eliminated to
            reduce redundancy, or that it be updated to reflect the relatively recent revisions to
            USITC Directive 3601. t.

Management's response

n Agree.  An Administrative Notice will be issued by the Director of Administration to notify the
procurement officials that we have eliminated the Procurement Policy and Procedures Guide and
that they should use USITC Directive 3601.1 for procurement policies." Target completion date:
February 28, 1994.




                                               0-8
                                                                  Appendix


         THE OPFICE OF ADMINISTRATION'S RESPONSE TO THE
       DRAFT REPORT, "REVIEW OF PROCUREMENT RELATED ISSUES"


REVIEW OF USITC'S COMPLIANCE WITH PUBLIC LAW 101-121 ON LOBBYiNG
ACTIVITIES

No recommendations


REVIEW OF USITC'S PROCUREMENT OF ADVISORY AND ASSISTANCE SERVICES

RECOMMENDATIONS:

1..   We recommend the Procurement Division ensure that year-end
      reconciliations and its respective reports include the proper
      transactions for the fiscal year to ensure an adequate and
      t~ely reconciliation.

      RESPONSE:    Agree

      The SACONS system Administrator will be instructed via
      memorandum from the Chief, Procurement Division to reconcile
      the advisory and assistance listing with accounting system the
      first week in each November for the ending fiscal year.

      TARGET COMPLETION DATE:    Pebruary 15, 1.994

2.    Review the checklist more closely to ensure that items 7 and
      8 are properly completed.   If the USITC dete~ines that the
      signatures on the checklists represent compliance with the PAR
      and OMB Circular A-120, then USITC should consider deleting
      items 7 and 8 from the checklist and including an all
      inclusive statement regarding compliance with the noted
      regulation.

      RESPONSE:    Agree

      QMB Circular A-1.20 has been rescinded       (November 1.9, 1993),
      therefore the Senior Procurement Executive will revise the
      procedures to confo~ with the PAR and OMB policy Letter No.
      93 -1., dated November 1.9, 1.993. At that time we will eliminate
      any confusion concerning signatures of review or approval.

      TARGET COMPLETION DATE:    June 1, 1994


REVIEW OP USITC'S CONTRACT CLOSE OUT PROCEDURES

RECOMMENDATIONS:
1..   We recommend that PRD develop a tickler file or other system
      for tracking expiring contracts within USITC.    This system
      will ensure that close out procedures are monitored and
      cOmpleted timely and ~rove USITC's compliance with the FAR.
     RESPONSE:   Agree

     The PRD has developed a listing of active contracts (tickler
     file) to provide information concerning expired contracts and
     contracts which are in the close out process.

     TARGET COMPLETION DATE:    Complete

2.   As discussed previously, tracking system for monitoring
     expired contracts and its subsequent close out procedures
     should include steps to moni tor OFB I S process for deobliga ting
     funds to ensure it is complete and t~ely.
     (See recommendation 1.)

     RESPONSE:   Agree

     Since procedures are already in place under the Desk top
     Procedures for Contract Close Out, the Chief, Procurement
     Division will remind each Contract Specialist to review the
     procedures paying particular attention to the deobligation of
     funds.

     TARGET COMPLETION DATE:    February 15, 1994

OTHER MATTERS AND SUGGESTIONS

1.   Since contract files are sent out to an off-site USITC storage
     facility when the contract is closed, our suggestion is for
     PRD or OMS to maintain records which identify which files had
     been sent out.    In addition, a reference to the location
     within the storage facility and the date the contract file was
     sent out should be maintained.       OMS indicated that they
     believe contract files are currently held in the storage
     facility indefinitely.      The FAR specifies that signed
     originals of contracts and modifications should be retained
     for a minimum of 6 years and 3 months after final payment
     under the contract is made.

     The following are our specific suggestions:

     a)   USITC should establish a system to track which files are
          maintained in the storage facility, and where they can
          be found.

     RESPONSE: A Dbase system for tracking files in the storage
     facility has been in place for some time. Additionally, desk
     procedures are in place for the person coordinating this
     function.   Apparently the auditors did not have a clear
     understanding of this system at the t~e of their review and
     the presence of certain procurement files which have been
     placed in the storage facility.   These files can be readily
     retrieved.
     TARGET COMPLETION DATE: Complete

     h)   Although an indefinite retention policy for some files
          seems prudent, USITC should establish a policy for
          exception to the FAR record retention policies.
     RESPONSE:   Agree

     We will revise USITC Directive 3601.1 to include a retention
     schedule for the closed out contract files.

     TARGET COMPLETION DATE:    June 1, 1994

2)   PRD maintains a Procurement Policy and Procedures Guide which
     substantially mirrors USITC Directive 3601.1.     In addition,
     the Procurement Policy and Procedures Guide was last updated
     September 1990, whereas the USITC Directive 3601.1 was revised
     September 1992.

     c)   We suggest that either the Procurement Policy and
          Procedures Guide he eliminated to reduce redundancy, or
          that it he updated to reflect the relatively recent
          revision to USITC Directive 3601.1.
     RESPONSE:   Agree

     An Administrative Notice will he issued hy the Director of
     Administration to notify the procurement officials that we
     have eliminated the Procurement Policy and Procedures Guide
     and that they should use USITC Directive 3601.1.        for
     procurement policies.

     TARGET COMPLETION DATE:    February 28, 1994


FOLLOW-UP REVIEW OF USITC' S PROCUREMENT RELATED AUDITS AND REVIEWS

OTHER MATTERS AND SUGGESTIONS

     The USITC Inspector General's Inspection Report 8-93, Legal
     Review of Internal Control in Procurement Process recommended
     several improvements to the Office of General Counsel's (OGe)
     involvement in the procurement and contracting process
     including reducing OGC' s time to perform follow-up legal
     reviews.     To  date,   the Director of     the Office    of
     Administration and the General Counsel are in discussions to
     address this issue and have not yet reached consensus. This
     issue should he monitored in the coming year to ensure a
     t~ely resolution.
RESPONSE:   Several discussions have been held to discuss the
matter of the timing and extent of legal reviews by the Office
of General Counsel.   In addition to the General Counsel and
the Director, Offioe of Administration the Chief, Procurement
Division and the Director, Office of Management Services have
also been involved in the discussions.

Considerable progress has been made including the Proourement
Division providing the General Counsel with a monthly report
on the procurement actions requiring legal review and frequent
discussions with the attorneys assigned to particular
contracts. The matter of extent of legal review should depend
on the nature of the contractual action. Hore discussions are
planned after the return of the Proourement Division Chief who
has been on extended sick leave.       Additionally, we look
forward to the appointment of an Assistant General Counsel for
Administration, a position which the General Counsel announced
on January 7, 1994.

TARGET COMPLETION DATE:   June 1, 1994
